 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




   MISSOURI DID NOT ALWAYS
  CORRECTLY CLAIM COSTS FOR
MEDICAID FAMILY PLANNING DRUGS
     FOR CALENDAR YEARS
         2009 AND 2010


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                       January 2014
                                                       A-07-12-01118
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  Missouri claimed at least $487,000 in unallowable Federal reimbursement for Medicaid
  family planning prescribed drugs for CYs 2009 and 2010.

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
requirements authorize Federal Medicaid reimbursement to States for family planning services at
an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent rate).
Previous Office of Inspector General reviews found that States improperly claimed
reimbursement at the 90-percent rate for services that were eligible only for the regular FMAP
or were ineligible for Federal reimbursement.

The objective of this review was to determine whether the Department of Social Services,
Missouri HealthNet Division (State agency), complied with Federal and State requirements when
claiming Federal reimbursement at the 90-percent rate for family planning prescribed drug costs
for calendar years (CYs) 2009 and 2010.

BACKGROUND

In Missouri, the State agency administers the Medicaid program. Federal reimbursement is
available at the 90-percent rate for certain prescribed drugs associated with family planning
services. Most of these prescribed drugs (family planning prescribed drugs) are used for birth
control or for the stimulation of ovulation in infertile women. In Missouri, the State agency
considered oral, topical, and implantable contraceptives as family planning prescribed drugs.
Federal reimbursement is available at the regular FMAP (between 71.24 percent and 74.43
percent for our audit period) for non-family planning prescribed drugs.

We reviewed $21,912,488 ($19,721,239 Federal share) that the State agency claimed for family
planning prescribed drugs, representing 358,779 claims, for CYs 2009 and 2010.

WHAT WE FOUND

The State agency did not always comply with Federal and State requirements when claiming
Federal reimbursement for family planning prescribed drug costs for CYs 2009 and 2010. Of
107 sampled claims, 85 complied with requirements and 22 did not. Of the 22 claims, 21 were
eligible for reimbursement only at the regular FMAP because the drugs were not prescribed for a
family planning purpose (13 claims) or because the State agency could not support that the drugs
were prescribed for a family planning purpose (8 claims). The other claim of the 22 was
ineligible for reimbursement because the State agency lacked supporting documentation.

On the basis of our sample results, we estimated that the State agency received at least $487,351
in unallowable Federal reimbursement. The overpayment occurred primarily because the State
agency lacked internal controls that would accurately identify which prescribed drug claims were
allowable for Federal reimbursement at the 90-percent rate. Specifically, the State agency’s


Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                         i
internal controls automatically classified contraceptive drugs as family planning services even in
cases when the medication in question may have been prescribed for another (non-family
planning) purpose.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $487,351 to the Federal Government,

    •   determine and refund the Federal share of any additional amounts related to family
        planning prescribed drugs that the State agency improperly claimed after our audit
        period, and

    •   strengthen internal controls to ensure that prescribed drug costs submitted for Federal
        reimbursement appropriately identify claims that are eligible for reimbursement at the
        90-percent rate.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency disagreed with all of our
recommendations. Specifically, the State agency said that its internal control procedure of
classifying all contraceptive drugs as family planning services for reimbursement at the
90-percent rate was adequate. To this point, the State agency also stated that a contraceptive
drug could still prevent a pregnancy despite the medical records not supporting the reasons for
taking the drug. In addition, the State agency said that having pharmacies obtain diagnosis
information from prescribing physicians is not consistent with current medical practice and
added that there is no way for a pharmacy to transmit diagnosis information to the State agency
on a drug claim transaction.

The State agency did not specifically comment on the claim that lacked supporting
documentation.

Nothing in the State agency’s comments caused us to change our findings or our
recommendations.




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                          ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicaid Program ..........................................................................................1
                 Missouri Medicaid Program ..........................................................................1
                 Medicaid Coverage of Family Planning Prescribed Drugs............................1
                 Family Planning Prescribed Drug Claims in Missouri ..................................2

           How We Conducted This Review..............................................................................2

FINDINGS .............................................................................................................................3

           Drugs Were Improperly Claimed Because the State Agency
            Could Not Support That the Drugs Were Claimed for a
            Family Planning Purpose ........................................................................................3

            The Claim for One Drug Was Improperly Claimed Because the
             State Agency Lacked Supporting Documentation..……………………..….........4

           Inadequate Controls ...................................................................................................4

           Unallowable Family Planning Claims .......................................................................4

RECOMMENDATIONS .......................................................................................................4

STATE AGENCY COMMENTS ..........................................................................................5

OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................5

APPENDIXES

           A: Related Office of Inspector General Reports .......................................................7

           B: Audit Scope and Methodology.............................................................................8

           C: Statistical Sampling Methodology .......................................................................10

           D: Sample Results and Estimates .............................................................................12

           E: State Agency Comments ......................................................................................13

Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                                                                     iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
requirements authorize Federal Medicaid reimbursement to States for family planning services at
an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent rate).
Previous Office of Inspector General reviews (Appendix A) found that States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the Department of Social Services, Missouri HealthNet
Division (State agency), complied with Federal and State requirements when claiming Federal
reimbursement at the 90-percent rate for family planning prescribed drug costs for calendar years
(CYs) 2009 and 2010.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Missouri Medicaid Program

In Missouri, the State agency administers the Medicaid program. The amount that the Federal
Government reimburses to State Medicaid agencies, known as Federal financial participation or
Federal share, is determined by the Federal medical assistance percentage (FMAP), which varies
based on a State’s relative per capita income. Federal reimbursement is available at the regular
FMAP (between 71.24 percent and 74.43 percent for our audit period) for non-family planning
prescribed drugs.

Medicaid Coverage of Family Planning Prescribed Drugs

Section 1905(a)(4)(C) of the Social Security Act (the Act) requires States to furnish family
planning services and supplies to individuals of childbearing age who are eligible under the State
plan and who desire such services and supplies. The Act and Federal regulations authorize
Federal reimbursement for family planning services at the 90-percent rate (section 1903(a)(5) of
the Act; 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)).




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                         1
Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
include infertility treatments. Federal reimbursement is available at the 90-percent rate for
certain prescribed drugs associated with family planning services (family planning prescribed
drugs).

CMS issued Financial Management Review Guide Number 20 (the Guide) to the State agency
via Medicaid State Operations Letter 91-9. The Guide allows State Medicaid agencies to use a
variety of coding systems and codes for medications for which those agencies reimburse
providers under Medicaid. Most of the medications covered as family planning prescribed drugs
are used for birth control or for the stimulation of ovulation in infertile women. Other
medications can be classified as family planning prescribed drugs if they are used incident to, or
as part of, procedures performed for family planning purposes, such as pain medications
following a sterilization procedure. However, the Guide does not specifically list, by
pharmaceutical code, the medications that may be reimbursed at the 90-percent rate.

Family Planning Prescribed Drug Claims in Missouri

To classify claims that include family planning services, the State agency uses indicators such as
procedure codes, diagnosis codes, surgical procedure codes, and modifiers. For family planning
prescribed drugs, the State agency classified medications according to First Data Bank
therapeutic class codes. Specifically, the State agency considered oral, topical, and implantable
contraceptives as family planning prescribed drugs.

HOW WE CONDUCTED THIS REVIEW

For CYs 2009 and 2010, the State agency claimed $22,502,737 ($20,252,463 Federal share) for
family planning prescribed drugs, representing 405,107 claims. (Each claim had one prescribed
drug.) We did not review 46,328 claims, totaling $590,249, with reimbursements that either
adjusted claims in quarters outside of our audit period or were determined to be immaterial.
From the remaining 358,779 claims, totaling $21,912,488 ($19,721,239 Federal share), we
reviewed a stratified random sample of 107 claims. Specifically, we reviewed 7 claims, in each
of which the State agency had made payments of at least $2,000. We also reviewed a random
sample of 100 claims from the remaining 358,772 claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B describes our audit scope and methodology, Appendix C describes our statistical
sampling methodology, and Appendix D describes our sample results and estimates.




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                          2
                                                 FINDINGS

The State agency did not always comply with Federal and State requirements when claiming
Federal reimbursement for family planning prescribed drug costs for CYs 2009 and 2010. Of
107 sampled claims, 85 complied with requirements and 22 did not. Of the 22 claims, 21 were
eligible for reimbursement only at the regular FMAP because the drugs were not prescribed for a
family planning purpose (13 claims) or because the State agency could not support that the drugs
were prescribed for a family planning purpose (8 claims). The other claim of the 22 was
ineligible for reimbursement because the State agency lacked supporting documentation.

On the basis of our sample results, we estimated that the State agency received at least $487,351
in unallowable Federal reimbursement. The overpayment occurred primarily because the State
agency lacked internal controls that would accurately identify which prescribed drug claims were
allowable for Federal reimbursement at the 90-percent rate. Specifically, the State agency’s
internal controls automatically classified contraceptive drugs as family planning services even in
cases when the medication in question may have been prescribed for another (non-family
planning) purpose.

DRUGS WERE IMPROPERLY CLAIMED BECAUSE THE STATE AGENCY
COULD NOT SUPPORT THAT THE DRUGS WERE CLAIMED FOR A
FAMILY PLANNING PURPOSE

Section 4270 of the Manual states that family planning services are those that prevent or delay
pregnancy or otherwise control family size.

For family planning services, the U.S. Department of Health and Human Services Departmental
Appeals Board (the DAB) has provided additional guidance regarding Federal reimbursement at
the 90-percent rate. The DAB has ruled that “… the State [agency] bears the burden of justifying
claims for enhanced rates…. It is not enough that the claims could possibly relate to family
planning, or that the diagnoses do not preclude such a determination. Rather, the State [agency]
must affirmatively document that the services were sought for family planning reasons.” 1

Contrary to the Federal requirement and administrative law ruling, the State agency improperly
claimed Federal reimbursement for 21 claims at the 90-percent rate. Specifically, the State
agency did not affirmatively document that the prescribed drugs were sought for family planning
reasons.

      •   For 13 claims, providers informed us that the drugs associated with these claims were not
          prescribed for a family planning purpose as defined in the Manual. (For some of these
          claims, providers furnished information as to the actual, non-family-planning purpose of
          the prescription.)

      •   For 8 claims, we obtained the corresponding prescriptions from the relevant pharmacies.
          However, we were unable to obtain information from the providers or the State agency as

1
    New York State Department of Social Services, DAB No. 1364 (1992).


Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                          3
        to the purposes of the prescriptions. Thus, we concluded that the State agency could not
        support a family planning purpose for these claims.

The prescribed drug costs related to these 21 claims were not allowable for reimbursement at the
90-percent rate, but were allowable for Federal reimbursement at the FMAP.

THE CLAIM FOR ONE DRUG WAS IMPROPERLY CLAIMED BECAUSE THE
STATE AGENCY LACKED SUPPORTING DOCUMENTATION

Section 1902(a)(27) of the Act and 42 CFR §§ 431.17(c) and 433.32 require that services
claimed for Medicaid reimbursement be documented. In addition, 13 Code of State Regulations
70-3.030 states that records must be maintained for 5 years. Contrary to these Federal and State
requirements, the State agency improperly claimed Federal reimbursement for drug costs
associated with one claim, with a June 30, 2009, date of service, that was not allowable for
reimbursement. Specifically, neither the provider nor the pharmacy identified on the State
agency’s records had documentation to support the prescribed drug. Therefore, this claim was
not allowable for Federal reimbursement.

INADEQUATE CONTROLS

The overpayment occurred primarily because the State agency lacked internal controls that
would accurately identify which prescribed drug claims were allowable for Federal
reimbursement at the 90-percent rate. Specifically, the State agency’s internal controls
automatically classified contraceptive drugs as family planning services even in cases when the
medication in question may have been prescribed for another (non-family planning) purpose.

UNALLOWABLE FAMILY PLANNING CLAIMS

Of the 100 prescribed drug claims in our random sample, 22 claims totaling $1,185 ($1,067
Federal share) contained errors or lacked support. On the basis of our sample results, we
estimated that the State agency received at least $487,351 in unallowable Federal reimbursement.

We did not identify any errors on the 7 claims in each of which the State agency had made
payments of at least $2,000.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $487,351 to the Federal Government,

    •   determine and refund the Federal share of any additional amounts related to family
        planning prescribed drugs that the State agency improperly claimed after our audit
        period, and




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                           4
    •   strengthen internal controls to ensure that prescribed drug costs submitted for Federal
        reimbursement appropriately identify claims that are eligible for reimbursement at the
        90-percent rate.

                                 STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with all of our
recommendations. Specifically, the State agency said that its internal control procedure of
classifying all contraceptive drugs as family planning services for reimbursement at the
90-percent rate was adequate. Regarding the claims that we questioned, the State agency stated
that “… while a participant may request contraception for another reason, it could still prevent a
pregnancy despite the medical records not supporting the reasons for taking a contraceptive
drug.”

In addition, the State agency said that having pharmacies obtain diagnosis information from
prescribing physicians is not consistent with current medical practice because, according to the
State agency, “[p]harmacy claims do not have diagnosis codes in the claims transaction.” In this
regard, the State agency said that there is no way for a pharmacy to transmit diagnosis
information to the State agency on a drug claim transaction. The State agency added,
“[o]btaining the information outside of the currently approved system causes a delay in
dispensing the contraceptive which interferes with access.”

The State agency did not specifically comment on the claim that lacked supporting
documentation.

The State agency’s comments appear in their entirety as Appendix E.

                      OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings or our
recommendations.

Regarding the 21 claims for which contraceptive drugs were not prescribed for family planning
purposes, we either (1) received statements from the prescribing physicians’ offices that
confirmed that the contraceptive drugs were not prescribed for a family planning purpose or
(2) were unable to obtain documentation from the State agency supporting the family planning
purpose of the prescriptions. Therefore, we maintain that these claims were not allowable for
Federal reimbursement at the 90-percent rate (but were allowable for Federal reimbursement at
FMAP rates).

With respect to the State agency’s comments that pharmacies are unable to obtain diagnosis
information or transmit that information to the State agency, we note that our recommendations
were directed at the State agency to comply with Federal requirements when claiming
reimbursement at the 90-percent rate. To this point, we continue to follow the DAB ruling cited
earlier, which states that “… the State [agency] bears the burden of justifying claims for
enhanced rates…. It is not enough that the claims could possibly relate to family planning, or



Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                             5
that the diagnoses do not preclude such a determination. Rather, the State [agency] must
affirmatively document that the services were sought for family planning reasons.”




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                   6
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:



                           Report Title                               Report Number        Date Issued


Missouri Did Not Always Correctly Claim Costs for                          A-07-12-01117     6/12/13
Medicaid Family Planning Sterilization Procedures for
Calendar Years 2009 and 2010

Missouri Incorrectly Claimed Federal Reimbursement for                     A-07-12-01121     3/13/13
Inpatient Claims With Sterilization and Delivery Procedures
for Calendar Years 2009 and 2010

Review of Prescribed Drug Costs in the Colorado Medicaid                   A-07-11-01095    10/17/11
Family Planning Program




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                           7
                 APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CYs 2009 and 2010, the State agency claimed $22,502,737 ($20,252,463 Federal share) for
family planning prescribed drugs, representing 405,107 claims. (Each claim had one prescribed
drug.) We did not review 46,328 claims, totaling $590,249, with reimbursements that either
adjusted claims in quarters outside of our audit period or were determined to be immaterial. We
reviewed a stratified random sample of 107 claims from the remaining 358,779 claims, totaling
$21,912,488 ($19,721,239 Federal share). Specifically, we reviewed 7 claims, in each of which
the State agency had made payments of at least $2,000. We also reviewed a random sample of
100 claims from the remaining 358,772 claims.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We reviewed only the internal controls that pertained directly to our objective.

We conducted this audit from October 2012 through August 2013.

METHODOLOGY

To accomplish our objective, we did the following:

    •   We reviewed applicable Federal laws, Federal and State regulations, CMS guidance, and
        the State plan.

    •   We held discussions with CMS officials to gain an understanding of CMS requirements
        and guidance furnished to State agency officials concerning Medicaid family planning
        claims.

    •   We held discussions with State agency officials to gain an understanding of how the State
        agency claimed Medicaid reimbursement for family planning services, including family
        planning prescribed drugs.

    •   We reconciled family planning claims reported on the CMS-64 reports 2 back to the State
        agency’s supporting documentation for CY 2009 and 2010.

    •   We selected a stratified random sample of 107 family planning prescribed drug claims
        (each claim had one prescribed drug).




2
 States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report), to report actual Medicaid expenditures for each quarter and CMS uses it to reimburse
States for the Federal share of Medicaid expenditures. The amounts reported on the CMS-64 report and its
attachments must be actual expenditures and be supported by documentation.



Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                                        8
    •    We requested that providers state whether the drug on the sampled claim was prescribed
         for a family planning purpose (as defined in the Manual). 3

    •    For 8 of the 107 sampled claims, we did not receive sufficient information from the
         providers regarding the purposes of the prescriptions. For these claims, we asked the
         State agency to provide documentation regarding the purposes of the prescriptions.

    •    We provided one medical record to our Chief Medical Officer, who performed a medical
         review to determine whether the medical record affirmatively documented a family
         planning purpose. 4

    •    We estimated the unallowable Federal reimbursement.

    •    We provided the results of our review to State agency officials on October 17, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




3
 We did not contact the providers for 2 of the 107 claims because the State agency cancelled their claims for
Medicaid reimbursement after our audit period.
4
 This record was associated with one of the eight claims (in our first finding) for which we concluded that the State
agency could not support a family planning purpose.


Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                                            9
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of 405,107 claims totaling $22,502,737 for Medicaid family planning
prescribed drugs for which the State agency claimed Federal reimbursement at the 90-percent
rate for CYs 2009 and 2010.

SAMPLING FRAME

From the population of claims, we removed claims that were negative adjustments to prior
periods. We established a materiality level of $25.00 or more per claim and removed claims that
had a reimbursement of less than this amount. Table 1 below summarizes the number of claims
excluded from the sampling frame and their total amounts.

                     Table 1: Claims Excluded From the Sampling Frame

                                                          Number
                                                         of Claims          Amount
                     Excluded Claims                                        Claimed
            Adjustments for other periods                   3,396          $(139,071)
            Reimbursement less than $25.00                 42,932           $729,320
               Total                                       46,328           $590,249

After removing these claims, the sampling frame consisted of 358,779 claims totaling
$21,912,488.

SAMPLE UNIT

The sampling unit was a paid family planning prescribed drug claim.

SAMPLE DESIGN

We used a stratified random sample consisting of two strata, based on the Federal reimbursement
amount for the claim, as shown in Table 2 below.

                        Table 2: Number of Claims Sampled per Stratum

              Stratum             Claim                Number           Total Amount
                                Amount                of Claims      Claimed Per Stratum
                1          $25.00 – $1,999.99          358,772           $21,775,735
                2         $2,000.00 and Greater              7             $136,753
               Total                                   358,779           $21,912,488




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                       10
SAMPLE SIZE

We selected a sample of 107 claims for family planning prescription drug claims.

Stratum 1 – 100 paid claims.
Stratum 2 – 7 paid claims.

We reviewed all claims in stratum 2.

SOURCE OF RANDOM NUMBERS FOR STRATUM 1

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.

METHOD FOR SELECTING SAMPLE UNITS FOR STRATUM 1

We consecutively numbered the sample units in the frame from 1 to 358,772. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement.




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                      11
                   APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                             Sample Results: Federal Share Amounts

                                                         Number of     Amount of
                               Sample      Value of     Claims With   Unallowable
  Frame          Frame          Size       Sample       Unallowable     Federal
   Size          Value                                    Federal    Reimbursement
                                                       Reimbursement
 358,772      $19,598,161        100      $ 4,590            22          $222
    7         $ 123,078           7       $123,078            0          $ 0

                       Estimates of Unallowable Federal Reimbursement:
                                     Federal Share Amounts
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                                       Total Estimated
                                                      Unallowable Federal
                                                        Reimbursement
                        Point estimate                   $     796,761
                        Lower limit                      $     487,351
                        Upper limit                      $   1,106,171




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)             12
                            APPENDIX E: STATE AGENCY COMMENTS





                           Your Pott'lltin.l. Our Support.
                                                                   J EREMIAH W. (JAY) NIXON , GOVERNOR • BRIAN KINKAD E, ACTING DIRECTOR

                                                             1'.0 ll1i\   15~"   • fiR~>~fl\\'.'-Y ST,Tr UIT-l\'1" 1\1111 f"ll"N1 •       lUH!:o.uN{IIY.I>ii Ot>)l!l~-1 ~27
                                                                                                       \1.'\'·."W.DSS_II.10 .(,(J\' •   :n:L?<\ I-481 5 •   57.)~75 1 -PO~ r. ,"\)..




                                                                       December 26, 2013



        Patrick J. Cogley
        Regional Inspector General for Aud it Services
        HHS O JG-OAS, Region VII
        60 I East 12'11 Street, Room 0429
        Kansas C ity, MO 64 106

        Dear Mr. Cogley:

        This is in response to the Office of Inspector General' s (OIG) draft report entitled " Missouri Did Not Always
        Correctly C laim Costs for Medicaid Family Planning Drugs for Calendar Years 2009 and 20 I0", Report Number A-
        07-1 2-0 I 118. The Department of Social Services' ( DSS) responses are below. The OIG recommendations are
        restated for ease of reference.

        Recommendation I: T he OIG recommends that the State agency refund $487,351 to the Federal Government.

        DSS Response: T he DSS disagrees with the recommendation. Pharmacy claims use NDC (National Drug Codes)
        to identify the d rug product being b illed . Pharmacy claims are nationally standardized through the National Council
        for Prescr iption Drug Programs (NCPDP). T he Health Insurance Portability & Accountability Act of 1996
        ( HIPAA) requ ires that a sing le standard be used fo r the electronic submission of retail phannacy claims - NCPDP
        format. ICD-9 diagnosis codes are not part of the NCPDP standard. Phannacy claims do not have diagnosis codes
        in the claims transaction. There is no way for the pharmacy to transm it diagnosis information to MO HealthNet on a
        drug claim transaction. MO HealthNet uses the First Data Band contraceptive therapeutic class codes to determine
        if a drug claim is for fam ily planni ng purposes for the add itional federal fi nancial participation. For the pharmacy
        to obtain the information from the prescribing physician is not consistent with current med ical practice. Obtaining
        the information outs ide of the currently approved system causes a delay in dispensing the contraceptive wh ich
        interferes w ith access.

        For the 22 claims in question, while a participant may request contraception for another reason, it still could prevent
        a pregnancy despite the med ical records not supporting the reasons fo r taking a contraceptive drug. Therefore, DSS
        maintains that all pharmaceuticals in the contraceptive therapeutic class should be eligible for the enhanced federal
        fin ancial participation.

        Recommendation 2: T he OIG recommends that the State agency determ ine and refund the Federal share of any
        additiona l amounts related to family planning prescribed drugs that the State agency improperly claims after our
        audit period.



                                                                       R ELAY MISSOURI
                                                             FOR HEARING AND SPEECH IMPAI RED
                                                 1-800-735-2466 VOICE • l -800- 735·2966TEXTPHONE

                                          An !:qual Opportumty Hmploycr. .w.-rvice.fi pmvlded on a nrmdi."criminolory ho.\·i.v.




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                                                                                                               13
        Patrick Cogley
        Page 2




        DSS Response: The DSS disagrees with this recommendation as outlined in the response to Recommendation I.

        Recommendation 3 : The OIG recommends that the State strengthen internal controls to ensure that prescribed drug
        costs submitted for Federal reimbursement appropriately identify claims that are eligible for reimbursement at the
        90-percent rate.

        DSS Response: The DSS disagrees with this recommendation. The DSS believes its internal controls for
        appropriate claiming of fam ily planning services are adequate and are further supported by the response to
        Recommendat ion I.

        Please contact Jennifer Tidball, Director, Division of Finance and Administrative Services at 573/751-7533 if you
        have furth er questions.

                                                                  Sincerely,



                                                                    mn D. Kinkade
                                                                  Acting Director

        BDK:JC:bsb




Missouri Medicaid Family Planning Prescribed Drug Claims (A-07-12-01118)                                                     14
